        NATIONAL ENDOWMENT FOR THE ARTS

               OFFICE OF INSPECTOR GENERAL

        FINANCIAL MANAGEMENT SYSTEM
         AND COMPLIANCE EVALUATION

                                    OF SELECTED
                                   NEA GRANTS TO

                       National Building Museum
                                      Washington, DC

                              REPORT NO. SCE-12-01

                                     October 24, 2011




                           REPORT RELEASE RESTRICTION
In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be
posted on the National Endowment for the Arts (NEA) website not later than three (3) days after it is
made publicly available with the approval of the NEA Office of Inspector General.

Information contained in this report may be confidential. The restrictions of 18 USC 1905 should be
considered before this information is released to the public. Furthermore, information contained in
this report should not be used for purposes other than those intended without prior consultation with
the NEA Office of Inspector General regarding its applicability.
                               INTRODUCTION


BACKGROUND

National Building Museum (NBM) was established by legislation in 1980. Its mission is
to advance the level of understanding and the quality of the building arts, comprising
architecture, engineering and design. The museum’s educational component, which
focuses on the impact of the building arts on people’s lives, offers tours, school
programs, lectures, family workshops, and symposia. Located four blocks from the
National Mall, NBM is housed in an historic nineteenth century structure and includes a
dynamic Great Hall as its centerpiece. According to its website, the museum has
presented “more than 200 exhibitions to critical acclaim.”

OBJECTIVE AND SCOPE
The National Endowment for the Arts (NEA) Office of Inspector General (OIG)
conducted a financial management system and compliance evaluation of NBM’s
management of NEA grant awards. The objective of the evaluation was to determine
whether NBM’s financial management and recordkeeping, including its system of
internal controls and procedures, complied with the requirements established by the
Office of Management and Budget (OMB) and NEA General Terms and Conditions for
Grants and Cooperative Agreements to Organizations (General Terms).

As part of the evaluation, we reviewed NBM’s compliance with OMB and NEA guidance
for the management of funding that NBM received from NEA under the American
Reinvestment and Recovery Act of 2009 (Recovery Act). The Recovery Act provided
$50 million to NEA to be distributed in direct grants to fund arts projects and activities
which preserve jobs in the nonprofit arts sector threatened by declines in philanthropic
and other support during the economic downturn. Consistent with the language in the
Recovery Act, eligible projects were generally limited to salary support and fees for
artists or contracted personnel.

We judgmentally selected two grant awards for detailed review: Grant Number 08-4200-
7028, in the amount of $70,000, to support of the exhibition “Eero Saarinen: Shaping the
Future,” and Grant Number 09-4288-7062, a Recovery Act award in the amount $50,000
to support the preservation of jobs.

The evaluation was conducted in accordance with the Council of the Inspectors General
on Integrity and Efficiency Quality Standards for Inspections and Evaluations, as
applicable.




                                            1
PRIOR AUDIT COVERAGE
During the past five years, the NEA OIG did not issue any audit reports on Federal grants
awarded to NBM. As of our site visit on September 13, 2011, the most recent issued
independent auditor’s report for NBM was dated September 30, 2010. The audit was
conducted by BDO USA LLP, an independent CPA firm, which issued an unqualified
(clean) opinion. NBM was subject to the audit requirements of OMB Circular A-133.

SUMMARY OF EVALUATION RESULTS
Our evaluation determined that NBM complied with the financial management system
and recordkeeping requirements established by OMB and NEA for its Recovery Act
funds. However, we identified a number of areas where financial processes, controls,
and procedures need improvement to ensure compliance with OMB and NEA grant
requirements and to improve its management of NEA awards.

NBM included unallowable costs and estimated allocated salary costs in its total outlays
reported on its final Financial Status Report (FSR). 1 NBM did not have procedures in
place to ensure that payments would not be made to organizations or parties that were
debarred or suspended from Federal assistance programs. NBM did not maintain
personnel activity reports for employees whose salaries were charged to NEA awards.
We also noted that NBM’s accounting manual did not include policies and procedures
specific to the management of Federal grant awards and although NBM had a completed
Section 504 Self-Evaluation Workbook on file as required, the workbook had not been
updated to ensure compliance with the Rehabilitation Act of 1973. Details are presented
in the following narrative.

Subsequent to our site visit, NBM developed written policies and procedures addressing
the management of Federal grants. NBM submitted a copy of its Accounting Manual,
Section V – Expenditure of Federal Grant Funds. NBM also submitted a copy of the
notification to all employees requiring adherence to the new policies and procedures for
grant management.

RECOVERY ACT AWARD
NBM was awarded Grant No. 09-4288-7062 in the amount of $50,000 in Recovery Act
funds. The Recovery Act award was used to support the salaries of two positions, the
National Curricula Coordinator and Registrar. NBM complied with the financial
management system and recordkeeping requirements established by OMB and NEA such
as maintaining personnel activity reports, submitting timely quarterly reports, and
identifying Recovery Act funds separately in its financial management system.



1
    Currently, Federal Financial Report (FFR).


                                                 2
REPORTED EXPENDITURES

Actual Expenditures
NBM was awarded Grant No. 08-4200-7028 in the amount of $70,000 with a one-to-one
matching requirement. During our site visit, we were provided with a listing of
expenditures totaling $151,264 that agreed with the total outlays reported by NBM on its
FSR. However, a judgmental sampling of expenditures identified food and entertainment
costs totaling $910 which is unallowable under OMB Circular A-122, Cost Principles for
Non-Profit Organizations. NBM also included estimated allocated salary costs in the
amount of $30,000, in its reported total outlays.

NEA General Terms state, in part:

       The Federal Financial Report is used to verify that the required match has been met. Ensure
       that the amounts reported on your Federal Financial Report can be easily reconciled to your
       accounting records.

       NEA’s instructions for completing the FFR further states that the amounts reported must be
       actual allowable expenditures (not estimates).

We recommended that NBM develop written policies and implement procedures to
ensure that all allowable and accurate costs charged to the project are reported on its
Federal Financial Report. The policy should also require that costs are actual and not
estimated and that employees who prepare the Federal Financial Report are familiar with
the OMB cost principles.

Subsequent to our site visit, NBM provided supporting documentation for total outlays in
the amount of $148,034. Although NBM met its matching requirement under this grant,
the total outlays were revised to delete the unallowable expenditures above and include
in-kind contributions and actual salary and benefit costs.

NBM’s Accounting Manual, Section V – Expenditure of Federal Grant Funds addresses
this finding, therefore no further action is necessary.

In-kind Contributions
During our site visit, NBM informed us that in-kind contributions had not been charged
to the grant. Subsequent to our site visit, NBM determined $27,200 of advertisement had
been contributed to the grant but not included in its total outlays. NBM provided
adequate documentation to support the costs including contracts, copies of advertisement
and completed in-kind contribution forms.

The NEA Instructions for Completing the FFR states that “total actual project outlays,”
including third party in-kind contributions are to be reported.



                                               3
We recommended the NBM develop written policies and implement procedures to ensure
that in-kind contributions are adequately documented and included in the total outlays
reported, as required by OMB Circulars A-110, A-122 and NEA General Terms.

NBM’s Accounting Manual, Section V – Expenditure of Federal Grant Funds addresses
this finding, therefore no further action is necessary.


FINANCIAL MANAGEMENT SYSTEM

Personnel Activity Reports
NBM did not maintain personnel activity (time and effort) reports. At the time of the
award, personnel activity reports were required for all employees whose salaries and
fringe benefits are charged, in whole or in part, to either the award or the matching funds
if the award is $50,000 or more. Therefore, we questioned $45,862 in salary costs
charged to the award. This requirement is mandated by OMB and is detailed in NEA’s
General Terms. A sample personnel activity report is also provided in the General
Terms, which states in part:

       For every employee whose salary is charged to an NEA grant, as a whole or in part,
       personnel activity reports must be maintained to account for all compensated time spent on
       other activities.

We recommended NBM provide documentation to support the questioned salary costs of
$45,862 charged to the award. Without additional documentation a potential refund may
be due to the NEA. We also recommended NBM develop written policies and
implement procedures to ensure that personnel activity reports are maintained, if
required, by NEA General Terms.

Subsequent to our site visit, NBM provided us with documentation to support salary costs
in the amount of $45,862 charged to the grant. We reviewed and submitted the
documentation to Management for a final decision. Based on the documentation
provided, Management accepted the salary costs charged to the award. Therefore, we
are not questioning salary costs and no potential refund to the NEA.

NBM’s Accounting Manual, Section V – Expenditure of Federal Grant Funds addresses
this finding, therefore no further action is necessary.

Debarment and Suspension
NBM did not have policies and procedures in place to ensure that contractors or
recipients were not debarred or suspended prior to the payment or award of Federal
funds. NEA General Terms states:




                                               4
          You must comply with requirements regarding debarment and suspension in
          Subpart C of 2 CFR part 180, as adopted by the Arts Endowment in Title 2 CFR,
          Chapter 32, Part 3254.

Subpart C of 2 CFR part 180, OMB Guidelines to Agencies on Governmentwide
Debarment and Suspension (Nonprocurement), states:

          You must verify that the person with whom you intend to do business is not
          excluded or disqualified. You do this by:

             (a) Checking the EPLS 2; or
             (b) Collecting a certification from that person if allowed by the Federal agency
                 responsible for the transaction; or
             (c) Adding a clause or condition to the covered transaction with that person.

NBM’s auditors noted in their 2010 audit report that “the Museum did not have an
existing procedure for verifying that vendors have not been debarred or suspended,” and
concluded that “…processes need to be in place to address suspension and debarment.”

We recommended that NBM develop written policies and implement procedures to
ensure that contractors and recipients are not on the debarment and suspension list prior
to the payment or award of Federal funds.

NBM’s Accounting Manual, Section V – Expenditure of Federal Grant Funds addresses
this finding, therefore no further action is necessary.

Section 504 Self-Evaluation
NBM had a Section 504 Self-Evaluation Workbook (Workbook) on file. However, it had
not been reviewed or updated since 2007. We were told, for example, that an employee
listed as handicapped in the document was no longer employed at NBM.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal
opportunity to enter facilities and participate in programs and activities. It does not
require that every part of every facility or program be accessible. The important
considerations are that individuals with disabilities have the same opportunities in
employment, the same opportunities to enter and move around in facilities, the same
opportunities to communicate and the same opportunities to participate in programs and
activities as non-disabled people. Further, it is important to offer employment, programs,
and services in settings that are integrated rather than to segregate individuals with
disabilities with special programs.

We recommend NBM conduct a Section 504 self-evaluation to verify compliance with
the Rehabilitation Act of 1973, as amended, and provide a copy of the completed
2
    Information may be obtained on parties that are debarred or debarred from receiving Federal funds from
    the General Services Administration (GSA) Excluded Parties List System web site at:
    https://www.epls.gov




                                                     5
Workbook to the OIG. A Section 504 Self-Evaluation Workbook can be completed online
at: www.arts.gov/about/504Workbook.html.

Accounting Manual Policies and Procedures
During our site visit, NBM provided us with a copy of its accounting manual. While we
found that the manual was updated annually, it did not include policies and procedures
applicable to the management of Federal grant awards such as reporting, allocation of
costs, in-kind contributions, personnel activity reports, debarment and suspension, and
Section 504 compliance. In particular, it did not refer to OMB Circular A-122, which
provides a description of cost requirements and a determination of which costs are
allowable versus unallowable. OMB Circular A-110 subpart C 21(b)(6) states that
recipients of Federal awards should have:

       …written procedures for determining the reasonableness, allocability and
       allowability of costs in accordance with the provisions of the applicable Federal cost
       principles and the terms and conditions of the award.

We recommended NBM include a section in its accounting manual applicable to the
management of Federal awards and provide a copy to the OIG.

Subsequent to our site visit, NBM developed written policies and procedures addressing
the management of Federal grants. NBM submitted a copy of its Accounting Manual,
Section V – Expenditure of Federal Grant Funds. NBM also submitted a copy of the
notification to all employees requiring adherence to the new policies and procedures for
grant management.

EXIT CONFERENCE
An exit conference was conducted with NBM officials on September 13, 2011.
Subsequent to our site visit, a telephone exit conference was held with NBM officials on
October 19, 2011. NBM officials concurred with our findings and recommendations.


SUMMARY OF RECOMMENDATIONS
We recommend that National Building Museum:

   1. Conduct a Section 504 self-evaluation to verify compliance with the
       Rehabilitation Act of 1973, as amended, and provide a copy of the completed
       Workbook to the OIG.




                                                 6
